          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           Reimbursable Work
           Authorizations for the
           Peachtree Summit Building
           Violated Appropriations
           Law and GSA Policy
           Report Number A130110/P/4/R14006
           September 30, 2014




A130110/P/4/R14006
                     Office of Audits
                     Office of Inspector General
                     U.S. General Services Administration


                                      REPORT ABSTRACT
                              Reimbursable Work Authorizations for the Peachtree Summit
                              Building Violated Appropriations Law and GSA Policy
OBJECTIVE
The objective of the audit    Report Number A130110/P/4/R14006
was to determine whether      September 30, 2014
the Public Buildings
Service (PBS) allowed         WHAT WE FOUND
changes to the scope,         We identified the following during our audit:
funding type, or obligation
expiration date of            Finding 1 – PBS violated appropriations law and GSA policy by accepting
Reimbursable Work             RWA amendments that used expired funds for work unrelated to the scope of
Authorizations (RWAs)         the original RWA.
from the Internal Revenue     Finding 2 – PBS RWA files are incomplete and lack adequate support.
Service (IRS) that were
not in compliance with
GSA’s RWA National            WHAT WE RECOMMEND
Policy Document and           We recommend the Southeast Sunbelt PBS Regional Commissioner:
appropriations law, as
summarized in the                1. Develop and implement controls to ensure client agency fund
Government                          certifications are valid.
Accountability Office’s          2. Ensure that Independent Government Estimates, whether generated
Principles of Federal               by client agencies or GSA, satisfy the requirements established by the
Appropriations Law, Vol.            RWA National Policy Document.
III, 12(C)(4)(c), and 31         3. Develop and implement a process to ensure timely closeout of RWAs
U.S.C. 1502(a), and 31              that are substantially complete and ensure closed RWAs are only re-
                                    opened for valid transactions.
U.S.C. 1552(a)(2).
                                 4. Develop controls to ensure RWAs receive an appropriate level of
                                    scrutiny to ensure a bona fide need.
                                 5. Clarify and actively manage the policy regarding RWA documentation
                                    in the RWA Entry and Tracking Application to ensure the service
                                    centers apply the policy consistently and maintain appropriate
                                    documentation.
Southeast Sunbelt
                              MANAGEMENT COMMENTS
Region Audit Office
                              Regional management partially agreed with both findings and accepted two
(JA-4)                        of the five recommendations. Management’s written comments to the report
401 W. Peachtree Street,      are included as Appendix D.
Suite 1701
Atlanta, GA 30308             We reaffirm our findings and have provided a detailed response to
404-331-5125                  management’s comments. See Appendix E.


     A130110/P/4/R14006
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            September 30, 2014
 TO:              John Smith
                  Regional Commissioner for PBS (4P)




 FROM:            Elizabeth Telo
                  Audit Manager, Southeast Sunbelt Region Audit Office
 SUBJECT:         Reimbursable Work Authorizations for the Peachtree Summit Building
                  Violated Appropriations Law and GSA Policy
                  Report Number A130110/P/4/R14006

This report presents the results of our audit of the Internal Revenue Service’s
Reimbursable Work Authorizations for the Peachtree Summit Federal Building. Our
findings and recommendations are summarized in the Report Abstract. Instructions
regarding the audit resolution process can be found in the email that transmitted this
report.

Your written comments to the draft report are included in Appendix D of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at:

       Elizabeth Telo   Audit Manager       Elizabeth.telo@gsaig.gov     404-224-2227
       Arthur Edgar     Auditor-In-Charge   Arthur.edgar@gsaig.gov       404-331-0379

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A130110/P/4/R14006
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1 – PBS violated appropriations law and GSA policy by accepting
            RWA amendments that used expired funds for work unrelated
            to the scope of the original RWA. ............................................................ 2
                 Recommendations 1, 2, 3, and 4 ............................................................. 7
                 Management Comments ......................................................................... 7


Finding 2 – PBS RWA files are incomplete and lack adequate support. .................... 8
                 Recommendation 5 ................................................................................. 9
                 Management Comments ......................................................................... 9


Conclusion.............................................................................................................. 10

Appendixes
Appendix A – Purpose, Scope, and Methodology…………… ....... ……………..A-1
Appendix B – RWA Appropriations and Policy Exceptions .... …………………B-1
Appendix C – RWA Documentation Exceptions ............. ..…………………….…C-1
Appendix D – Management Comments ........................... ..…………………….…D-1
Appendix E – Audit Response to Management Comments .... ……………….…E-1
Appendix F – Report Distribution .................................... ..…………………….…F-1




     A130110/P/4/R14006                                         ii
Introduction
We initiated this limited scope audit after the Treasury Inspector General for Tax
Administration brought to our attention possible improper use of Reimbursable Work
Authorizations (RWA) for work at the Peachtree Summit Federal Building.

RWAs are agreements between the Public Buildings Service (PBS) and client agencies,
whereby PBS agrees to provide goods and services in exchange for reimbursement of
cost plus expenses and fees. RWAs are used to capture and bill client agencies for the
cost of altering, renovating, repairing, or providing services that are outside the scope of
basic operations financed through an agency’s rent payment.

A properly executed RWA provides written documentation of the formal agreement
between the client agency and PBS and must clearly identify funds as annual, multi-
year, or no-year. The expiration date of obligational authority must be specified as well.
PBS should not accept an RWA unless it includes and meets the following minimum
criteria:

       •   A bona fide need; 1
       •   A preliminary Scope of Work (SOW) that clearly describes the objectives and
           requirements of the customer request; 2
       •   A cost estimate, using the Summary Cost Estimate worksheet, that supports
           the preliminary SOW and in the same level of detail. The cost estimate
           should equal the total authorized amount of the RWA;
       •   Proper funding certification; and
       •   A client agency signature.

Our audit objective was to determine whether PBS allowed changes to the scope,
funding type, or obligation expiration date of RWAs from the Internal Revenue Service
(IRS) that were not in compliance with GSA's RWA National Policy Document and
appropriations law, as summarized in the Government Accountability Office’s Principles
of Federal Appropriations Law, Vol. III, 12(C)(4)(c) and 31 U.S.C. 1502(a), and 31
U.S.C. 1552(a)(2).

See Appendix A – Purpose, Scope, and Methodology for additional details.




1
  The RWA National Policy Document states, “The bona fide need rule, 31 U.S.C. 1502(a), establishes
that a fiscal year appropriation can be obligated only to meet a legitimate need arising in (or in some
cases arising before but continuing to exist in) the fiscal year for which the appropriation was made.”
2
  This supports the Description of Requirements block on RWA Form 2957.



A130110/P/4/R14006                            1
Results
Finding 1 – PBS violated appropriations law and GSA policy by accepting RWA
amendments that used expired funds for work unrelated to the scope of the
original RWA.

PBS accepted and processed amended RWAs using funds that were outside the period
of obligational authority for work that was unrelated to the original scope. Since the
charges ultimately placed against these RWAs did not constitute antecedent liabilities, 3
this practice violated GSA’s RWA National Policy Document (National Policy Document)
and appropriations law.

GSA’s National Policy Document states that a client agency may spend excess RWA
funds on new or amended RWAs if the RWA meets all of the following conditions: 4

    1. The appropriated funds must be legally available for the purpose for which they
       are being redirected;
    2. There must be a bona fide need for which the funds are applied; and
    3. The appropriation must not have lapsed and must remain available until PBS can
       accept, and thereby obligate, the funds.

Similarly, under the "bona fide need" rule of appropriations law, an agency may validly
obligate an appropriation only to meet a legitimate and documented need existing
during the period of the appropriation's availability. 5 Within-scope contract modifications
issued in a fiscal year subsequent to the year of the original contract are considered
bona fide needs of, and thus chargeable to, the appropriation used to fund the original
contract. 6 However, funds from a fiscal year appropriation that are not obligated during
that period of availability are not generally available for new obligations in a subsequent
year. 7

Further, once an agency learns that an RWA is overfunded, and no additional funds are
required for a project, it must de-obligate the excess amount. Surplus funds resulting
from a cost underrun cannot be used in a succeeding fiscal year. 8

During our limited scope audit, we reviewed 11 N-type RWAs and found 6 instances
where the RWA fund type was changed from annual to multi-year after the obligational


3
  An antecedent liability is the liability of the Federal Government that arises and is enforceable under a
provision of an original contract.
4
  Section 4.4.2.4, Uncommitted, Residual, or Excess Funds.
5
  31 U.S.C. 1502(a); Comptroller General Legal Decisions B-226198, July 21, 1987; and B-207433,
September 16, 1983.
6
  31 U.S.C. 1553(a).
7
  31 U.S.C. 1341(a) and 1553(a).
8
  Comptroller General Legal Decision B-257617, April 18, 1995.



A130110/P/4/R14006                              2
authority had expired. 9 In all six instances, the RWA scope was expanded to include
unrelated projects after the period of obligational authority expired. These practices
violate GSA’s policies on the use of excess funds on new or amended RWAs. Further,
these are violations of the bona fide need rule and account closing laws. 10 In addition,
we found four instances where the initial RWA fund type was coded incorrectly, yet
accepted by GSA. See Appendix B for additional details.

We identified four factors that contributed to these policy and appropriations law
violations:

    1. PBS lacks controls for identifying questionable fund changes and accepting
       RWAs with incorrect codes;
    2. PBS accepted IRS-provided cost estimates without verification of price
       reasonableness;
    3. PBS did not closeout RWA projects in a timely manner; and
    4. PBS accepted RWAs at fiscal year-end without adequate scrutiny.

PBS lacks controls for identifying questionable fund changes and accepting
RWAs with incorrect codes

PBS does not have controls in place to identify questionable fund change requests or
prevent the acceptance of RWAs with incorrect fund types. Of the six amended RWAs
discussed above, we found:

    •   Four instances where the Treasury Account Symbol (TAS) changed but the
        Agency Accounting Data code did not change and still reflected annual funding;
    •   Four instances where the obligational authority expiration date changed;
    •   Three instances where the amended RWAs were signed by the same IRS
        certifying official on the same day and subsequently approved by the same GSA
        official;
    •   Six instances where the TAS listed was not a valid TAS; and
    •   Two instances where the initial RWAs did not include the date the obligational
        authority expired.

During the audit, PBS officials initially acknowledged that errors were made with these
IRS RWAs. They stated that due to a lack of training and/or understanding of
appropriations law, employees accepted and processed IRS RWA amendments that
should have been rejected. Some employees in the Atlanta North Service Center
believed that PBS had 5 years after an RWA was approved to spend the money or
make unrelated scope changes, regardless of the expiration date of obligational


9
  N-type RWAs depict non-recurring, non-prospectus, standalone projects for a 1-time need that are fully
funded by a client agency.
10
   Account closing laws refer to cost underruns which are addressed in 31 U.S.C 1552(a)(2) and
Comptroller General Legal Decisions B-183184, May 30, 1975 and B-257617, April 18, 1995.



A130110/P/4/R14006                             3
authority. As a result, PBS accepted scope changes outside the legal obligational
authority period.

After draft findings were provided, PBS management stated that the certification of
funds is the responsibility of the client agency. 11 They added that the client agency’s
fund certifying official initially validated the funds of the six RWAs as annual but later
submitted amendments changing the fund types to multi-year. PBS accepted the
erroneous amendments based on the IRS’s funds certification.                Finally, PBS
management believed that, at the time of acceptance, the service center did not have
the capability to determine whether the fund types were correct.

PBS’s National Policy Document addresses employees’ duty to investigate transactions
equal to or in excess of the prospectus threshold that cast doubt on the availability of
funds and appropriations. Similar language for RWAs below the prospectus threshold
does not exist. However, even without a specific policy, the unusual nature of the IRS
requests should have been sufficient to seek clarification on the requested fund type
changes.

We researched Public Law documents and determined that in fiscal years 2008 through
2012, multi-year appropriations for the IRS ‘s Operations Support account were limited
to Information Technology Support and Research. 12,13          To further confirm the
appropriation fund types, we reviewed the Department of the Treasury’s Financial
Management Reference Data website, and found no evidence that the TAS referenced
in the IRS RWAs applied to multi-year appropriations. In fact, with the exception of one
instance, the TAS on the IRS RWAs could not be found in the Department of the
Treasury’s database.

GSA accepted IRS-provided cost estimates without verification of price
reasonableness

PBS Southeast Sunbelt Region management instructed its RWA service centers that
they did not have to prepare an Independent Government Estimate (IGE) if the IRS
provided an estimate from its space project management system, Electronic Project
Investment Process (ePIP). However, PBS could not determine if the RWA amount
submitted by the client agency was reasonable and accurate without developing its own
IGE or analyzing the estimate provided by the client agency. We found amended
RWAs with significant excess funds because the IRS estimate greatly exceeded the
actual amount spent on the original project. (see Figure 1)



11
   The draft findings were prepared by the Southeast Sunbelt Region Audit Office and issued to the Acting
Regional Administrator on January 13, 2014.
12
    Operations Support is the appropriations account used to fund the acquisition of real property,
equipment, construction, and renovation of facilities.
13
   In fiscal year 2012, funding for IRS building renovations was either annual or no-year. GSA accepted
RWA N0584063 on September 26, 2012, which was certified with multi-year funds expiring on September
30, 2013.


A130110/P/4/R14006                             4
In one instance, we found documentation that a PBS official questioned the estimate
provided by the IRS. GSA performed an analysis and determined that the IRS
overestimated the project by approximately $100,000. However, PBS subsequently
accepted the RWA at the higher amount. Figure 1 details the cost underruns observed.

                                  Figure 1 – RWA Cost Underruns

                            Initial   Cost of                                Underrun as
          RWA              Amount     Original     Cost                       % of Initial
         Number           Approved Scope of Work Underrun                      Amount
                              (1)       (2)         (3)                          (4)
      N0117728              $130,119      $61,821 $68,298                            52.5%

      N0358053                 26,998                8,078       18,919               70.1%

      N0358189                 15,972                3,346       12,626               79.1%

      N0358312                  5,873                2,877        2,996               51.0%

      N0568403                 13,856              11,703         2,153               15.5%

      N0569512 14            260,171              187,006        73,164               28.1%


Notes
   1. Amount Approved for the initial statement of work, excluding PBS management
      and overhead fees.
   2. Costs associated with the original scope of work, excluding PBS management
      and overhead fees.
   3. Initial Amount Approved (1) less Cost of Original Scope of Work (2).
   4. Cost Underrun (3) divided by Initial Amount Approved (1).

The National Policy Document (May 4, 2005) states, “GSA agrees to do the work as
requested on the RWA and provide a cost estimate acceptable to the agency.” 15 The
June 21, 2010, version of the National Policy Document states, “It is the PBS
representative’s responsibility to prepare the cost estimates.” However, in cases where
the client agency requests that its estimate is used, the policy states:

       Upon receipt of the cost estimate prepared by the customer agency, the
       PBS representative (project manager or construction representative) will
       review the cost estimate for validity and, upon acceptance, document the
       file with a concurring fair and reasonable statement.


14
   The initial cost estimate provided by the IRS totaled $282,070 ($260,171 excluding PBS management
and overhead fees). The RWA closed with a balance of $53,486 after the initial project and unrelated
amendment was completed.
15
   Section 4.3, Cost Estimates.


A130110/P/4/R14006                           5
With the exception of RWA Number N0117728, noted above, no other RWA file
provided any evidence that PBS performed an analysis or reviewed any IRS cost
estimates.

After reviewing the Summary of Findings, PBS management acknowledged that even
though there were some substantial differences in the IRS estimate and the ultimate
cost of the project, situations like these are common because of the nature of
construction work. However, PBS management also acknowledged that it did not
document its review of the client estimates provided for the RWAs examined by the
audit team.

PBS did not closeout RWA projects in a timely manner

PBS did not always provide timely closeout of projects that were substantially
completed. As a result, excess funds on completed RWAs were held and used later to
complete unrelated projects. In addition, we identified two RWAs that were financially
closed, but subsequently re-opened when PBS officials asked the finance group to lift
the termination date in order to charge expenses unrelated to the original SOW. For
instance:

      •   A PBS official sent an email request on September 27, 2010, requesting that
          RWA N0358053 be reopened in order to amend the scope and use the
          remaining funds. The period of obligational authority expired at the end of fiscal
          year 2008 and the last invoice for the original SOW posted in June 2009. 16 The
          termination date was subsequently lifted and charges unrelated to the original
          SOW were made to the RWA as late as April 19, 2012.
      •   A PBS official sent an email on May 14, 2013, requesting that RWA N0569512
          be reopened. The period of obligational authority expired at the end of fiscal year
          2009 and the last invoice for the original SOW posted in February 2013. The
          termination date was subsequently lifted and charges unrelated to the original
          SOW were made to the RWA as late as September 20, 2013.

PBS’s National Policy Document requires that an RWA be closed 60 days after the
substantial completion date. 17 By keeping an RWA open, PBS increases the risk that
excess funds due to cost underruns will be used improperly. Further, PBS undermines
its own controls by reopening RWAs that have been closed and using the excess funds.

PBS accepted RWAs at fiscal year-end without adequate scrutiny

PBS did not appropriately scrutinize RWAs accepted at the end of the fiscal year,
effectively allowing the IRS to hold or “park” funds with GSA. PBS accepted RWAs with
incomplete estimates and without an apparent bona fide need.



16                                                    th
     The government’s fiscal year ends on September 30 .
17
     Section 4.5.2, Completion of Non-Recurring RWAs.


A130110/P/4/R14006                              6
We found that GSA approved 6 of 11 RWAs reviewed late in the fiscal year (August or
September). Although PBS may accept RWAs at any time, the proximity of these
RWAs to the end of the fiscal year, along with the generic SOWs and incomplete
estimates, raises red flags. Further, subsequent events cause concern that the IRS
parked these funds with GSA. For instance:

      •   In four of six instances, the client agency later requested scope changes,
          unrelated to the original RWA scope. In two of these instances, the scope
          changes occurred outside the period of obligational authority.
      •   PBS approved RWA N0584063 for $1.2 million on September 26, 2012. No
          obligations or expenditures had been charged to the RWA as of May 5, 2014.
          GSA’s National Policy Document gives PBS 90 days to contractually obligate
          funds accepted from a client agency. 18 When asked about this RWA, PBS
          management stated that a purchase request to the PBS Acquisition Division was
          issued on January 28, 2013; however, in September 2013, the request was
          ultimately cancelled due to project work delays. A new purchase request was
          issued in January 2014.

Recommendations

We recommend the Southeast Sunbelt PBS Regional Commissioner:

      1. Develop and implement controls to ensure client agency fund certifications are
         valid.
      2. Ensure that Independent Government Estimates, whether generated by client
         agencies or GSA, satisfy the requirements established by the RWA National
         Policy Document.
      3. Develop and implement a process to ensure timely closeout of RWAs that are
         substantially complete and ensure closed RWAs are only re-opened for valid
         transactions.
      4. Develop controls to ensure RWAs receive an appropriate level of scrutiny to
         ensure a bona fide need.

Management Comments

In its comments, regional management, generally disagreed with Finding 1, stating that
only one of the six RWAs violated appropriations law and GSA policy. According to the
comments, the other five RWAs were acceptable because the client agency submitted
certified amendments correcting errors that initially classified the funds type as annual
instead of multi-year. In addition, regional management stated that they rely on the
client agency’s certification because it is not PBS’s responsibility to validate RWA funds.
Management’s comments are included in their entirety as Appendix D.

After reviewing management’s comments, we reaffirm our findings. Our response is
included as Appendix E.
18
     Section 4.3.2., Obligation of Funds by Client Agency.


A130110/P/4/R14006                                7
Finding 2 – PBS RWA files are incomplete and lack adequate support.

During our audit, we found the type and extent of documentation maintained
electronically in the RWA Entry and Tracking Application (RETA) was inconsistent. In
addition, we found that this documentation was not sufficient to support the RWAs
reviewed.

We reviewed ten RWAs in RETA and found supporting documentation lacking, as
indicated below: 19

     •     None of the ten RWAs had a detailed SOW loaded into RETA; and
     •     While each RWA had a summary cost estimate in RETA, none provided
           enough detail to support the amount authorized in the RWA.

We also reviewed the hard copy files for the ten RWAs maintained by the region and
found:

     •     Five instances where PBS did not provide the cost estimate as required by
           policy;
     •     Three instances where PBS did not have evidence of its review and
           acceptance of the client agency provided estimate;
     •     Three instances where work performed was not adequately supported by a
           detailed estimate from ePIP or an IGE;
     •     One instance where a detailed SOW was not included.

See Appendix C for details.

Vague or missing documents reduce assurance that PBS has fulfilled its
responsibilities. At the onset of our audit, PBS personnel stated that RETA was the
official document repository for RWAs in the Atlanta North Service Center. In later
discussions, PBS management asserted that there was no current guidance supporting
what documentation should reside in RETA.

The current National Policy Document states that only a signed Form 2957 and client
agency letters need to be uploaded into RETA. However, other PBS guidance
describes additional RWA documents that should be loaded into RETA. For example,
the PBS Reimbursable Services Standard Operating Procedure User Guide (April 2008)
lists deliverables that should reside in RETA, including a signed Form 2957, Customer
Service Letters, and a comprehensive description of requirements. Additionally, the
PBS National Financial Accounting Process and Internal Controls Desk Guide
(February 2011) states that all documentation related to an RWA is to be stored in
RETA. 20


19
    Only 10 of the 11 RWAs identified in Finding 1 were selected because 1 was a regional RWA and the
file was not maintained in the Atlanta North Service Center.
20
    Section 3.12, Internal Control Chart – RWAs.


A130110/P/4/R14006                           8
Recommendation

We recommend the Southeast Sunbelt PBS Regional Commissioner:

   5. Clarify and actively manage the policy regarding RWA documentation in RWA
      Entry and Tracking Application to ensure the service centers apply the policy
      consistently and maintain appropriate documentation.

Management Comments

In its comments, regional management agreed that six of the ten RWA files were
incomplete and lacked adequate support. In the other four instances, regional
management stated that they: found sufficient documentation to support the original and
amended RWAs, had no requirement to maintain specific documents in RETA, or was
permitted to use client-agency prepared cost estimates. Management’s comments are
included in their entirety as Appendix D.

After reviewing management’s comments, we reaffirm our findings. Our response is
included as Appendix E.




A130110/P/4/R14006                     9
Conclusion
We found that PBS accepted and processed amended RWAs that used funds outside of
the period of obligational authority for work that was unrelated to the scope of the
original RWAs. In addition, PBS accepted and processed new RWAs identified as
multi-year that actually should have been annual year. These transactions violated
GSA’s National Policy Document and appropriations law.

We also found that RWA file documentation was missing or incomplete and as a result,
there was no assurance that PBS was fulfilling its responsibilities.

To address the above concerns, the Southeast Sunbelt PBS Regional Commissioner
should:

   1. Develop and implement controls to ensure client agency fund certifications are
      valid.
   2. Ensure that Independent Government Estimates, whether generated by client
      agencies or GSA, satisfy the requirements established by the RWA National
      Policy Document.
   3. Develop and implement a process to ensure timely closeout on RWAs that are
      substantially complete and ensure closed RWAs are only re-opened for valid
      transactions.
   4. Develop controls to ensure RWAs receive an appropriate level of scrutiny to
      ensure a bona fide need.
   5. Clarify and actively manage the policy regarding RWA documentation in RETA to
      ensure the service centers apply the policy consistently and maintain appropriate
      documentation.




A130110/P/4/R14006                    10
Appendix A – Purpose, Scope, and Methodology
Purpose

We initiated this limited scope audit after the Treasury Inspector General for Tax
Administration brought to our attention possible improper use of RWAs for work at the
Peachtree Summit Federal Building.

Scope

The audit was limited to IRS RWAs processed and managed by the Atlanta North
Service Center in the Southeast Sunbelt Region. Using RETA’s reporting tools, we
identified a universe of 50 “N” type IRS RWAs at the Peachtree Summit Federal
Building.    From this universe, we narrowed the scope to RWAs with changes to fund
type and/or original scope of work. RWAs without fund type or date histories in RETA
were excluded. Using this process, we judgmentally selected 11 RWAs for additional
review.

Methodology

To accomplish our objective, we:

   •   Reviewed relevant criteria from GAO’s Principles of Federal Appropriations Law;
   •   Reviewed GSA’s National Policy Document (September 2012, June 2010, and
       May 2005 editions);
   •   Reviewed IRS appropriations funding bills and TAS from 2008 to 2012;
   •   Reviewed prior audit reports and findings, GSA memoranda, and PBS internal
       policies and procedures pertaining to the RWA process;
   •   Conducted interviews and meetings with PBS Southeast Sunbelt Region staff
       members and service center employees;
   •   Performed walkthroughs of different stages of the RWA process with staff
       members; and
   •   Selected and examined a sample of RWA files, including supporting
       documentation maintained in both hardcopy RWA files and RETA.

We conducted the audit between June and September 2013 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




A130110/P/4/R14006                    A-1
Internal Controls

Our examination of internal controls was limited to IRS RWAs managed by the Atlanta
North Service Center. We tested internal controls and compliance with applicable
policies and appropriations laws, including the National Policy Document, GAO’s
Principles of Federal Appropriations Law, and United States Codes (the Economy Act,
the Property Act, and the bona fide need rule).




A130110/P/4/R14006                  A-2
Appendix B – RWA Appropriations and Policy Exceptions

                   Final          Initial                   Date of
         RWA     Approved        Approval     Original    Final Scope
        Number    Amount           Date      Funds Type     Change       Notes
    N0117728         $142,759     4/5/2008     Annual       10/26/2010      1,2

    N0358053           30,418    6/23/2008     Annual        9/22/2010      1,2

    N0358189           17,375    8/21/2008     Annual       10/26/2010     1,2,4

    N0358312            6,683    2/13/2009     Annual        4/13/2011      1,2

    N0568403           15,688    6/23/2009     Annual        4/18/2011      1,2

    N0569512          282,070    8/21/2009     Annual        4/16/2012     1,2,4

    N0572994          133,525    9/17/2010   Multi-Year       7/6/2011      4,6

    N0573003          425,322    9/21/2010   Multi-Year     10/26/2010      4,6

    N0573126          149,263    9/17/2010   Multi-Year      5/10/2011      3,6

    N0584063         1,246,816   9/26/2012   Multi-Year           N/A      3,5,6



Notes

  1. The RWA fund type was changed from annual to multi-year after the obligational
     authority expired.
  2. The RWA scope was expanded and amended after the period of obligational authority
     expired.
  3. GSA accepted the IRS RWA late in the fiscal year (August or September).
  4. The RWA was accepted at the end of the fiscal year and later had modifications
     unrelated to the original scope.
  5. Regional RWA accepted on September 26, 2012, with no obligations or expenditures in
     fiscal years 2012, 2013 or through September 9, 2014.
  6. Client agency funding coded and classified as multi-year; however, determined to be
     annual year funding.




A130110/P/4/R14006                   B-1
Appendix C – RWA Documentation Exceptions

                        RWA        Final Approved
                       Number         Amount         Notes
                     N0117728             $142,759    1,2,3,6

                     N0358008                4,327        1,2

                     N0358189               17,375      1,2,6

                     N0358312                6,683      1,2,4

                     N0572994              133,525      1,2,5

                     N0573003              425,322      1,2,5

                     N0573126              149,263      1,2,5

                     N0358053               30,418     1,2,3,6

                     N0568403               15,688      1,2,6

                     N0569512              282,070     1,2,3,6



Notes

  1. The RWA documentation in RETA did not include a detailed or preliminary SOW.
  2. The Summary Cost Estimate in RETA was not detailed enough to support the amount
     authorized in the RWA.
  3. The RWA hard copy file did not have an IGE or ePIP estimate that supported the work
     performed.
  4. The RWA hard copy file did not include a detailed SOW to support the work performed.
  5. The RWA file did not have evidence of GSA’s review and acceptance of the client
     agency’s estimate as required by the National Policy Document (June 2010).
  6. The RWA file did not have an estimate prepared by PBS as required by the National
     Policy Document (May 2005).




A130110/P/4/R14006                 C-1
Appendix D – Management Comments




A130110/P/4/R14006    D-1
Appendix D – Management Comments (cont.)




A130110/P/4/R14006     D-2
Appendix D – Management Comments (cont.)




A130110/P/4/R14006     D-3
Appendix D – Management Comments (cont.)




A130110/P/4/R14006     D-4
Appendix D – Management Comments (cont.)




A130110/P/4/R14006     D-5
Appendix E – Audit Response to Management Comments
The audit report states that PBS violated appropriations law and GSA policy by
accepting six RWA amendments that used expired funds for work unrelated to the
scope of the original RWA. The report also states that ten RWA files reviewed were
incomplete and lacked adequate support.            Finally, the report makes five
recommendations to improve controls to prevent this in the future.

In its comments, regional management states that only one of the six RWAs violated
appropriations law and GSA policy because the client agency submitted certified
amendments to correct the funds type from annual to multi-year. In addition, PBS
maintained that only six of the ten RWA files were incomplete and lacked adequate
support. It further disagreed with three of the five recommendations.

We reaffirm our findings. Despite GSA regional management’s assertions that the
Agency corrected the fund types, we concluded that the funds were annual funds.
Further, by not following PBS policy, it enabled the expenditure of expired funds as well
as the “banking” of customer agency funds. In addition, PBS’s assertions that four of
the RWA files were complete are not supported.

Finding 1 - PBS violated appropriations law and GSA policy by accepting RWA
amendments that used expired funds for work unrelated to the scope of the original
RWA.

Regional management’s comments ignore the nature of the funds. We concluded that
all six of these RWAs were funded with annual appropriations. The accounting codes for
the RWAs indicate that the funds were appropriated and expired in the same fiscal year.
Further, for the timeframe involved, the customer agency’s appropriations lacked multi-
year funds for real property.        Additionally, during our review, we found no
documentation indicating that the amended RWAs were submitted to correct the
funding. Lastly, we asked PBS to provide evidence that the RWAs were using multi-
year funds; however, it did not.

As these were annual funds that had expired prior to the RWA amendments, their use
on work unrelated to the original RWAs violated appropriations law. Instead of
addressing this, regional management comments appear to state that there was no law
violation because the customer agency changed the funding type from annual to multi-
year on the amended RWA form and that GSA has no requirement to inquire about the
requesting agency’s changes.




A130110/P/4/R14006                     E-1
Appendix E – Audit Response to Management Comments
(cont.)
While there may not be a specific policy requirement for PBS to inquire about customer
funding, PBS does have a responsibility to ensure the validity of funding. This
responsibility is not limited to obtaining a signature from a fund certifying official, as is
reflected on the RWA form which states: “Further written assurances regarding funding
availability may be required depending on the facts and circumstances of individual
requests.” Although the IRS submitted multiple amendments, some on the same day,
with fund type changes, missing data, and incorrect accounting information, PBS did not
seek clarification.

Further, a lack of due diligence regarding the funding is not the sole issue here. PBS
enabled the appropriations law violation by not following its own policies and in some
cases circumventing them. According to PBS policy, within 60 days of substantial
completion of the work performed under an RWA, PBS should perform a financial
closeout of the RWA, which would include notifying the customer of any excess funds
for deobligation and terminating the RWA. For the RWAs in question, PBS did not
follow policy.

Regional management states that RWAs N0358053 and N0569512 were closed shortly
after substantial completion. Then, based on amendments submitted by the IRS, PBS
reopened the RWAs and the excess funds were correctly used for unrelated scope
changes. However, if the financial closeout had been performed according to policy,
PBS should have notified the IRS that excess funds were ready for deobligation. For
the two RWAs in question, we found:

   •   PBS reopened RWA N0358053 11 months after it was initially closed and had
       sufficient time to identify the excess funds and notify IRS about the need for
       deobligation.
   •   RWA N0569512 was amended in April 2012, 9 months prior to the February
       2013 closing date. However, of the $187,006 spent on the initial scope of the
       project, $186,216 (99.58 percent of the total) was spent by March 2011. Since
       the work on the RWA was substantially completed at this time, PBS should have
       performed a financial close-out and notified the IRS of the excess funds.
       However, PBS accepted the amendment 13 months later for new work unrelated
       to the original scope.

In both cases, PBS had sufficient time to perform a financial close-out, notify IRS of the
excess funding, and terminate the RWA. However, although the RWAs had been
closed, PBS did not perform the complete financial close out. Instead, it circumvented
controls by reopening the RWAs and allowed the client agency to use the funds for new
work, thereby violating appropriations law.




A130110/P/4/R14006                       E-2
Appendix E – Audit Response to Management Comments
(cont.)
Regional management states that policy allowed the acceptance of agency funds at any
time in the fiscal year as long as the RWA meets the requirements of acceptance.
However, regional management does not take into account its own policy that requires
extra scrutiny on projects accepted at the end of the fiscal year. The National Policy
Document Section 7.1, Acceptance of RWAs at Fiscal Yearend states:

      Before acceptance of an RWA by PBS, a careful review must be
      conducted to confirm that the order represents a bona fide need of the
      requesting client agency. Doing so will help prevent PBS from
      unknowingly assisting a client agency to improperly obligate funds. While
      such due diligence is true of all RWAs received throughout the course of
      the fiscal year, it becomes especially important at yearend, when
      client agencies are under increased pressure to obligate funding
      before the period of availability for new obligations expires for
      annual funding, or multiyear funding in the last year of availability for
      new obligations. The Federal Buildings Fund cannot and must not
      be used as a means to hold or “park” client agency funding
      [emphasis added].

Four of the six RWAs accepted close to the fiscal year end were overfunded and
subsequently had scope changes that were unrelated to the original RWA scope. If
PBS had provided additional scrutiny as required by its own policy, it could have
determined the funding amounts were excessive when compared to the work
requested. This would have prevented the possibility of the Federal Buildings Fund
being used to hold or park client agency funding.

Finally, in response to RWA N0584063, regional management states that GSA
Acquisition Letter V-07-04 allows it a “reasonable time” to contractually obligate a
customer agency’s funds. However, PBS’s National Policy Document clearly states that
a reasonable time is 90 days, and includes language about dealing with complex
projects that could take longer than 90 days. Section 7.1 further states:

      If a determination is made that, based on the complexities of the work
      requested, contract award will not occur within 90 calendar days, the
      separate, mutually agreed-upon contract award date required under
      OCAO policy must be recorded in Block 24a of the RWA, Agreed-Upon
      Contract Award Date.




A130110/P/4/R14006                   E-3
Appendix E – Audit Response to Management Comments
(cont.)
We found no evidence that PBS fulfilled this policy requirement for RWA N0584063
Further, despite regional management’s assurance that this project is ongoing, the
RETA system has assigned two red flags to this RWA noting that the RWA is: “1-4 yrs
old, no activity in 12 months” and has a “Start date > 12 months old and no obligations
or expenses.” As such the funds on this RWA appear to be parked and the RWA
should be reviewed for termination by PBS and deobligation by the IRS.

Finding 2 – PBS RWA files are incomplete and lack adequate support.

Regional management’s comments incorrectly state that at the time the RWAs were
accepted, there were no requirements stating that specific documents be included in
RETA. PBS guidance, such as the PBS Reimbursable Services Standard Operating
Procedures User Guide (April 2008), lists deliverables that should reside in RETA.
Additionally, the PBS National Financial Accounting Process and Internal Controls Desk
Guide (February 2011) states that all documentation related to an RWA be stored in
RETA.

In addition, regional management states that a GSA policy issued in November 2007
allowed PBS to use client agency prepared cost estimates. However, regional
management did not provide a copy of the policy as requested.

Finally, regional management states that the description included in Box 7 of RWA
N0358312 was sufficiently detailed to serve as the SOW. However, the National Policy
Document from May 2005 states, “To be accepted by the GSA, the RWA must contain a
sufficiently detailed scope of work, including the location, type of work, amount of work,
requested completion date and all required signatures.” We found that GSA had
questions about the SOW and did not consider what was written in Box 7 “sufficiently
detailed”. In a letter to the client agency on February 13, 2009, GSA’s Deputy Director
of the Atlanta North Service Center wrote:

      We have not processed the RWA due to clarification needed on the scope
      and timeline. The Project Manager Rod Grant will contact you within the
      next two weeks to clarify the scope of work, timeline for the work, and any
      other elements to ensure we can accept the RWA and assign a RWA
      number.

This letter clearly shows that the information listed on the RWA was not sufficient for the
agency to understand the SOW and what exactly needed to be done with the RWA.




A130110/P/4/R14006                      E-4
Appendix E – Audit Response to Management Comments
(cont.)
Conclusion

We disagree with regional management’s comments to Findings 1 and 2. Based upon
the information in the audit report, PBS violated appropriations law and GSA policy, and
failed to maintain RWA files that were complete and adequately supported.




A130110/P/4/R14006                    E-5
Appendix F – Report Distribution
Regional Commissioner, Public Buildings Service, Southeast Sunbelt Region (4P)

Regional Administrator, Southeast Sunbelt Region (4A)

Commissioner, Public Buildings Service (P)

Deputy Commissioner, Public Buildings Service (PD)

Chief of Staff, Public Buildings Service (P)

Regional Counsel (LD4)

Director, Service Center Division, Public Buildings Service (4PS)

Program Manager-Branch Chief, Reimbursable Services Branch (BPAA)

Branch Chief, GAO/IG Audit Response Branch (H1C)

Audit Liaison, Public Buildings Service, Southeast Sunbelt Region (BCPA)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A130110/P/4/R14006                      F-1
